                      NATIONAL SCIENCE FOUNDATIC*.
                        WASHINGTON, D.C. 20550




    Office of
Inspector General



MEMORANDUM


                                   --   -   --   -   -.



 SUBJECT:     Closeout dadrandun
       TO:    Case No. I93090042
On Sentember 23, 1993, while in DFM, I over heard a discussion
                        - (FF)
about* Frequent ' ~ l ~ e  r   mileage for g                 being
credited to a frequent flyer account.
informed m
car by Dr-.                    NSF Program         The invoice had
        ed the mi eage rom he car to Dr.          FF account. Ms.
         questioned the credit to a pe       requent Flyer account
        ficial government travel. Ms.        gave me copies of the
Dr. -travel          voucher and the
            had been an NSF employee since 1976 and had traveled
            times per year. On September 30, 1993, I interviewed
            about the credit to his Frequent Flyer account. Dr.
            ed that this was an accidental occurrence and that he
              account for government travel with US Air. However,
the rental company accidently               travel to his personal
account with United Airlines.               stated that he had the
milage taken off his personal               even though, he had to
personally pay for the rental car because his Division
not have enough travel funds to pay for the car.
ensured me that he does not receive credit for
                           F account.    During the interview, I
                           does understand the regulations. I did
                            the OIG Awareness Message dated April

This case is hereby closed.
